                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-23                                    Office of Inspections                                September 2014




                        Inspection of
              the Bureau of Diplomatic Security,
              High Threat Programs Directorate




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Robert B. Peterson
                                             Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Findings                                           1
Introduction                                           3
Context                                                4
Leadership                                             9
   Communication                                      10
   Coordination                                       10
Program and Policy Implementation                     12
   Office of Regional Directors                       12
   Office of Special Programs                         15
   Liaison Officers                                   15
   Security Protective Specialists                    16
   Explosive Ordnance Disposal                        16
Resource Management                                   17
   Financial Management                               17
   Logistics Management – Travel                      18
   Human Resources                                    18
   Administrative Support                             19
   Security Management                                19
   Information Technology Support                     21
   File Management                                    22
   SharePoint Training                                23
List of Recommendations                               24
Principal Officials                                   26
Abbreviations                                         27




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Key Findings
•   The establishment of the Bureau of Diplomatic Security, High Threat Programs directorate in
    2013 enabled the Bureau of Diplomatic Security to enhance its focus on the security needs of
    overseas posts most susceptible to risk and threat.

•   The High Threat Programs directorate suffers from significant staffing gaps and position
    shortages. In order to continue to meet its goals, the Department needs to staff the directorate
    fully.

•   With an annual operating budget of $72 million in FY 2014, the High Threat Programs
    directorate serves as an advocate for high threat posts in the Department and in the
    interagency setting; however, it does not have the authority to cause peer bureaus to
    implement its recommendations.

•   An obstacle to the High Threat Programs directorate’s work of supporting the urgent needs of
    high threat posts is that the Bureau of Overseas Buildings Operations lacks a formal
    mechanism to expeditiously address those needs. The Bureau of Overseas Buildings
    Operations provided a draft proposal during the inspection to create such a mechanism.

•   During its first year, the High Threat Programs directorate helped create a culture of shared
    responsibility for security within the Department and has forged strong partnerships with
    regional security officers and counterparts in regional and functional bureaus as well as
    within the interagency community.

•   The Benghazi Accountability Review Board report recommends specific actions related to
    personnel assignments, training, technical security systems, and regional security officer
    reporting that must be taken at high risk, high threat posts. Although not required, these have
    yet to be formally incorporated into the Post Security Program Review checklists for high
    threat posts.

•   The High Threat Programs directorate has been successful at raising awareness of security
    issues, but there have been no Department announcements informing Department personnel
    of the High Threat Programs directorate’s roles and responsibilities. The Department has not
    published the directorate’s Foreign Affairs Manual chapter. This lack of information has led
    to confusion at overseas posts as to the directorate’s authorities.

•   Posts not served by the High Threat Programs directorate remain the responsibility of the
    International Programs directorate. No formal mechanism exists for realigning staff
    responsibilities between the two directorates when annual reviews result in changes to the list
    of high threat posts.

•   In establishing the High Threat Programs directorate, the bureau copied the organizational
    structure of its International Programs directorate without tailoring it to the new directorate’s
    anticipated size, priorities, and goals. The Bureau of Human Resources should lead a
    management and organizational review of the directorate.
                                                  1
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect.

The inspection took place in Washington, DC, between April 7 and June 22, 2014. Ambassador
Maura Harty (team leader), Lavon Sajona (deputy team leader), Tom Allsbury, Ambassador Don
Hays, Ken Hillas, Mark Jeleniewicz, Chris Mack, Shawn O’Reilly, Vandana Patel, and Richard
Sypher conducted the inspection.




                                       2
                          SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Introduction
        The Department announced in November 2012 the appointment of the first-ever deputy
assistant secretary (DAS) in the Bureau of Diplomatic Security (DS) to evaluate, manage, and
mitigate security threats at high threat posts. The Benghazi Accountability Review Board issued
its report a few weeks later. The second recommendation in the report was for the Department to
re-examine DS’s organization and management, with a particular emphasis on span of control for
security policy planning for all overseas U.S. diplomatic facilities. It determined that the creation
of a high threat DAS position in DS “could be a positive first step if integrated into a sound
strategy for DS reorganization.” Subsequently, the Department created the High Threat Programs
directorate (DS/HTP).

        Before the creation of DS/HTP, the DS International Programs directorate (DS/IP) was
responsible for evaluating and managing security threats at each of the Department’s 220
overseas posts. DS/HTP is now responsible for 30 designated high threat posts, and DS/IP
remains responsible for all other posts. At the time of the inspection, DS/HTP supported 30 posts
in Africa, the Middle East, and South Asia, with DS/IP responsible for the remaining 190 posts.
All references in this report to high threat posts refer to those posts that DS/HTP supports.

        This report focuses on DS/HTP’s performance of its role during its first year of existence.
The report does not provide an overall assessment of the Department’s performance in providing
for the security of its overseas missions, for which a variety of bureaus share responsibility. The
report does not evaluate other potential configurations of the DS/HTP office within the
Department’s organizational structure. Those broader issues are addressed in other reports. 1

        In performing this inspection of DS/HTP, the OIG team interviewed all members of the
directorate, focusing on leadership, morale and potential instances of fraud, waste, and abuse.
The team also developed and distributed surveys to regional security officers and information
management officers at high threat posts, focusing on the type and level of support the
directorate provided. Analysis of the responses helped the team assess DS/HTP’s support for
posts. OIG inspectors interviewed 14 chiefs of mission or chargés to gain additional insight into
DS/HTP’s effectiveness. To understand how DS/HTP personnel interact with non-Department
entities, the OIG team interviewed seven members of the interagency community. The OIG team
attended internal and external senior-level, working-level, and interagency meetings. It examined
documents relating to operational planning. The OIG team also reviewed inspection reports of
several high threat posts conducted over the past six years. OIG Inspectors conducted a total of
182 interviews.




1
 See, for example, General Accounting Office, Diplomatic Security: Overseas Facilities May Face Greater Risks
Due to Gaps in Security-Related Activities, Standards, and Policies, (June 2014) (GAO-14-655); the Department of
State, Diplomatic Security Organization and Management (May 2013) (also known as the “Green Report,” as the
panel that produced the report was chaired by former Under Secretary of State for Management, Grant S. Green, Jr.),
and the Sullivan Best Practices Panel.

                                             3
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
        DS/HTP works with regional security officers (RSO) and embassy leadership to focus on
each mission’s security and coordinates security programs at posts and in Washington. Together
they review the formulation, planning, coordination, policy development, and implementation of
post security programs. The DS/HTP staff participates in virtually every threat-related activity
concerning high threat posts, helping to select which posts will become part of the high threat
post program, monitoring intelligence, and formally and informally briefing Department
leadership and National Security Council (NSC) staff on threats and mitigation efforts. DS/HTP
now has a $72-million operating budget to cover the expenses of its domestic operations and
costs of supporting RSOs overseas. In addition, it can access DS resources to support urgent
overseas projects. It is not the principal decisionmaker on questions related to implementation of
physical security upgrades or construction projects. However, its staff members work closely
with regional bureau executive offices, the Bureau of Overseas Buildings Operations (OBO), and
others bureaus to place a continuing focus on the security needs of high threat posts in such
activities and decisions.

        The directorate consists of the Office of Regional Directors and the Office of Special
Programs. The former is organized along geographic lines, with three regional units: African
Affairs, Near East and South Central Asia, and Iraq/Afghanistan. The latter is responsible for
operational planning, special operations, and liaison with three combatant commands (Central
Command, Africa Command, and Special Operations Command) and the Joint Special
Operations Command to provide support and coordination for all diplomatic posts, not just for
those in the high threat program.




                                        4
                           SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




             5
SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




             6
SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




             7
SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The DS/HTP Web site states its mission essential tasks are to: 1) conduct Post Security
Program Reviews (PSPR); 2) establish personnel priorities and funding levels; 3) coordinate
security policy with the rest of the Department and other U.S. Government agencies; 4) develop
Post Security Profiles; 5) ensure and coordinate assistance during RSO absences and crisis; 6)
coordinate VIP travel to overseas posts; and 7) prepare briefing papers for DS and Department
management, including trip books. The directorate also monitors the implementation of security-
related recommendations that arose from a fall 2012 Interagency Security Assessment Team
(ISAT) process in which 5 teams assessed security needs at 19 posts.

        When formed, the directorate initially received no funding or full-time employees (FTE)
but borrowed staff primarily from DS/IP and other parts of the bureau. The directorate has no
standard operating procedures, and the Foreign Affairs Manual (FAM) is not current. The DAS
relied on persuasion, collaboration, and drive to secure staff, space, and materials. While carving
out the directorate’s niche and focusing intensely on the posts in DS/HTP’s portfolio, the DAS
also fostered strong working relationships within the Department, which many partners describe
as both welcome and even unprecedented.

        The directorate participates in several key security-related decisionmaking mechanisms.
These include the Department’s risk management/risk assessment process, called the Vital
Presence Validation Process, which assesses appropriate staffing levels at high threat posts and
whether a mission should remain open or closed, and the work of the Department’s High Threat
Post Review Board, which prepares a list for the consideration of senior Department leadership.
DS, the regional bureaus, OBO, the Bureau of Intelligence and Research, and the Under
Secretaries for Management and Political Affairs also take part. The Secretary approves the list
of high threat posts.




                                        8
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Leadership
        DS/HTP’s original DAS received high marks from staff in leadership categories, such as
vision, awareness, ethics, clarity, engagement, and judgment. He faced a range of challenges at
the outset, including a lack of preplanning for the establishment of the directorate he would lead.
Management and substantive concerns had to be addressed nearly simultaneously under the dual
pressures of speed and effectiveness. The bureau’s assistant secretary and principal deputy
assistant secretary left their posts within 3 weeks of the DAS’s appointment, leaving him without
top-level bureau guidance. Notwithstanding the unconventional nature of its beginnings, in
which the Department created the leadership position before the office itself, DS/HTP has
created the relationships that allow it to evaluate, manage, and attempt to mitigate security
threats at overseas missions.

        OIG questionnaire results from RSOs indicate that they perceive the DAS and his team as
partners and advocates. In Washington, directorate staff members attend close to 70 regularly
scheduled meetings (most of which are weekly or biweekly) with the Department’s regional and
functional bureaus and the interagency community, where they share up-to-date security-related
information about threats and post efforts to mitigate those threats. They attend numerous
additional meetings called in response to world events. The directorate’s DAS is a regular
presence at the NSC Counter Terrorism Security Group meetings. His staff is in constant contact
with NSC staff that relies on it for security related information. In the Department, three regional
assistant secretaries noted that their bureaus’ relationships with DS have become stronger and
that security is a shared responsibility.

        The directorate’s current DAS began his service during the inspection, when his
predecessor became the bureau’s principal deputy assistant secretary. At the time of the
inspection, the directorate’s leadership had focused on raising threat awareness, building
relationships, and advocating for security needs—rather than institution building—and had yet to
standardize many directorate policies and procedures. The DAS must focus on security at high
threat posts but must also institutionalize procedures, processes, and the organization’s
structure—tasks not wholly accomplished in the directorate’s early days. He was receptive to the
OIG team’s suggestions.

Policies and Procedures

        DS/HTP had little time for crafting policies and standard operating procedures during the
directorate’s start-up phase and has yet to do so. The directorate will experience its first turnover
cycle in summer 2014. Written policies and standard operating procedures are required to ensure
effectiveness in Washington and to provide the best service for posts overseas. According to 1
FAM 014.2(6.1), Key Organizational Practices, during major reorganizations of bureaus or
offices in the Department, organizations should, at a minimum, communicate early and often to
build trust, ensure consistency of message, and provide information to meet specific needs of
employees. In addition, a directorate handbook would introduce incoming desk officers to their
specific responsibilities and the role of the directorate. In the absence of these documents, the
directorate’s capabilities and effectiveness could be diminished.


                                         9
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 1: The Bureau of Diplomatic Security should establish a set of standard
operating procedures and policies and a handbook for the High Threat Programs directorate.
(Action: DS)

Communication

       The bureau has not communicated DS/HTP’s mission to Department employees. The
OIG team was unable to find any Department notices or cables comprehensively informing
Department personnel of the directorate’s roles and responsibilities. Nor has the Department
published the FAM chapter defining the directorate’s organization. As a result, there is limited
understanding of the directorate’s work.

        The directorate’s outreach to colleagues and counterparts has helped spread the word and
create positive working relationships with regional and functional bureaus, but that is not a
substitute for a formal communications strategy. Overseas, the directorate’s mission seems clear
to RSOs but remains ambiguous to some chiefs of mission and others. Interviews with 14 chiefs
of mission ran the gamut, with some wishing the directorate would consult more closely with
them and others feeling that its staff is well intentioned but that it’s impact not immediately
apparent. Several chiefs of mission erroneously believed that the directorate was responsible for
every aspect of security, including security-related upgrade projects that remain the purview of
OBO. In those cases, they expressed disappointment that the directorate seemed unable to
advocate more successfully on their behalf for major construction projects. Nevertheless,
virtually all expressed some degree of appreciation for the directorate and understanding of its
challenging mission.

        Communication to Department employees about the directorate’s roles and
responsibilities would contribute to understanding and realistic expectations about the
directorate’s functions.

Recommendation 2: The Bureau of Diplomatic Security should publish annually a Department-
wide notice communicating the role of the High Threat Programs directorate, its mission, and its
responsibilities. (Action: DS)

Recommendation 3: The Bureau of Diplomatic Security should publish guidance in the
Foreign Affairs Manual delineating the High Threat Programs directorate’s mission,
responsibilities, and organizational structure. (Action: DS)

Recommendation 4: The Bureau of Diplomatic Security should require all regional security
officers at high threat posts to brief incoming U.S. direct-hire employees on the High Threat
Programs directorate’s role and mission. (Action: DS)

Coordination

        The DAS models the behavior he expects staff to emulate. His interactions with posts,
Department colleagues, and the interagency community are ongoing and extensive. As a result,
directorate desk officers follow suit. They hold daily and weekly teleconferences and meetings
and regular calls with bureau desk officers and post management officers. Geographic bureau
                                                 10
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

executive directors have monthly meetings with DS. Officers from DS/HTP attend regional
bureau staff meetings. NSC and Department of Defense contacts report regular and reliable
coordination at all levels.

        When annual reviews result in changes to the high threat posts list, DS/HTP and DS/IP
have no mechanism for realigning staff responsibilities between them. DS/HTP and other DS
directorates have ongoing consultation, given occasional overlapping interests and timetables for
specific projects. Greater standardization is required in this case because their respective country
portfolios are subject to change during Department reviews and as world events dictate.
According to 1 FAM 014.2 (fig. 6), during major reorganizations of bureaus or offices, the
Department should make public implementation goals and timelines and identify cultural
features of merging organizations to increase understanding of former work environments. Any
requisite staffing changes must occur quickly to ensure continued effectiveness.

Recommendation 5: The Bureau of Diplomatic Security should develop and implement a
formal process for realigning the High Threat Programs directorate and International Programs
directorate staff responsibilities as changes occur to the high threat posts list. (Action: DS)

        OBO does not have a mechanism for addressing urgent security needs of overseas posts.
As a result, DS/HTP has been unable to secure consistently expeditious action by OBO. During
the inspection, OBO’s director provided a draft proposal to inspectors for an “urgent security
requirements” process, which, if enacted, would include a biweekly senior-level meeting
between OBO and DS, a weekly OBO working group meeting chaired by a deputy director, and
the establishment of a dedicated staff-level administrator for urgent security requirements.

Recommendation 6: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Diplomatic Security, should implement a process for expedited responses to urgent
requests for security upgrades and emergency construction projects. (Action: OBO, in
coordination with DS)




                                        11
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Program and Policy Implementation
Office of Regional Directors

       The Office of Regional Directors has three regional units supporting high threat posts.
These units also have integrated themselves into the security-related work of the regional and
functional bureaus. This integration is one of the directorate’s defining qualities in providing
enhanced support to high threat posts, which is accomplished through a higher desk officer-to-
mission ratio than in its sister directorate, DS/IP.


 Sana’a Case Study: DS/HTP at Work

        DS/HTP desk officers work closely with the Office of Intelligence and Threat
 Analysis to identify, monitor, and report intelligence threats. A good example of this
 collaborative effort is found in the August 6, 2013, ordered departure of eligible family
 members and nonessential personnel from Embassy Sana’a.

        In July 2013, DS/HTP became aware of a general threat targeting the U.S. mission.
 DS/HTP received additional threat reporting from the Department of Defense and other
 members of the intelligence community. Information was simultaneously passed up the
 chain of command to the DS front office, the DS Command Center, and the Office of Crisis
 Management Support. DS/HTP also established regular communication with Embassy
 Sana’a via telephone and email. The DS/HTP desk officer became the conduit for passing
 requests for information between the reporting entity and the appropriate action office.

         The DS/HTP desk officer accompanied the Assistant Secretary for DS and briefed
 the Office of the Under Secretary for Management, the Office of the Under Secretary of
 Public Affairs, and the Office of the Deputy Secretary regarding the situation on the ground,
 current operational planning and embassy support capabilities. After the embassy initiated
 an ordered departure procedure, the DS/HTP desk officer was posted in the Department’s
 operations center and served as the intermediary between the Department and DS. As the
 sole DS representative in the operations center during the evacuation operation, the DS/HTP
 desk officer relayed operational information directly to the principals as the situation
 unfolded.

         On January 28, 2014, the Department terminated the ordered departure from Sana’a.
 The OIG team found that DS/HTP provided timely communication and support to all
 interested parties in the Department.


       The office director supervises the regional directors for African Affairs, Near East and
South Central Asia, and Iraq/Afghanistan. Two desk officers serve as staff assistant and
executive assistant, respectively, to the DAS, and another serves as an executive assistant to the
bureau’s principal deputy assistant secretary. A special assistant to the office director coordinates
implementation of the ISAT recommendations and manages the scheduling of PSPR.

                                        12
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        At the start of the inspection, the regional office director initiated weekly meetings with
his staff to enhance information sharing and provide better feedback and guidance. The OIG
team supported the decision to hold such weekly meetings.

        The OIG team observed desk officers in the regional directorate spend considerable time
and effort on keeping the bureau, the Department, and the NSC informed about the security
situation at high threat posts through regular reports and in response to specific taskings. On a
rotating basis, a desk officer comes to work several hours early to prepare a morning threat
briefing for the DAS. Each work day at 7:30 a.m. a desk officer presents the briefing that also
notes efforts undertaken at high threat posts to mitigate security threats. On a biweekly basis, a
desk officer collects information on posts of concern, as designated by the NSC. The interagency
Deputies Committee regularly reviews this information.

        In the time since the directorate was created, every post under DS/HTP’s aegis has
received at least one visit from a directorate officer. Because of staffing gaps and workload
issues however, some regional desk officers have not yet visited the posts in their respective
portfolios. This limits their understanding of conditions at posts they support. In some cases,
senior agents have done PSPRs because the bureau’s unwritten policy requires that the DS agent
leading a PSPR be equal or senior in rank to the RSO at the mission. The work requirements of
desk officers refer to the need to travel to high threat posts. Allowing desk officers to conduct
familiarization tours will enhance the directorate’s overall effectiveness. The absence of a
familiarization visit reduces a desk officer’s ability to comprehend fully the specific needs of the
particular high threat posts they support and detracts from the directorate’s overall effectiveness.

Recommendation 7: The Bureau of Diplomatic Security should establish a policy that desk
officers in the early stage of an assignment in the High Threat Programs directorate will conduct
or participate in a familiarization visit to the diplomatic posts for which they have primary
responsibility. (Action: DS)

Iraq/Afghanistan Unit

        The Iraq/Afghanistan unit is split, with a deputy director in charge of each country
portfolio. At the time of the inspection, the Afghanistan desk was working with senior
Department and other agency officials on contingency plans for diplomatic operations in
Afghanistan after the U.S. military drawdown. The Iraq unit has responsibility for three high
threat posts, one of which (Erbil) was only recently added to the Department’s list of high threat
posts. The Iraq unit was focused on the transition of embassy operations in Iraq. Interviews with
DS/HTP staff members show that although this task increased the work load of the unit, the desk
officers retained a sense of purpose and dedication.

African Affairs

        The African Affairs unit, with a regional director and 2 desk officers, supports 13 high
threat posts, of which Embassy Bangui remained closed during the inspection. In addition to
supporting its posts, the unit was focused on assessing and making contingency plans for
operations of embassies in several high threat posts.

                                        13
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Near East and South Central Asia Unit

        The Near East and South Central Asia unit with five desk officers supports 11 high threat
posts, including four in Pakistan. Embassy Damascus remains closed and operations at Consulate
General Lahore were suspended at the time of the inspection. All but one desk officer had visited
the missions for which they had primary responsibility and thus had direct knowledge of the
situation on the ground. In 2013, the unit proactively supported Embassies Sana’a and Cairo
when the Department ordered the evacuation of nonessential personnel.

Interagency Security Assessment Teams

       Prior to the creation of the High Threat Programs directorate and as a result of the
September 11, 2012, attacks on the diplomatic compound in Benghazi, Libya, the Secretary
ordered a worldwide review of the Department’s security posture and asked the Department of
Defense to deploy personnel to serve on ISATs. Led by a senior DS special agent, ISATs were
charged to review security at 19 posts.

        The teams completed their work in November 2012 and made 287 recommendations for
security improvements. The Office of the Under Secretary for Management issued taskings
based on those recommendations. As of May 30, 2014, 169 recommendations were completed,
68 were pending, and 50 were closed—either overtaken by events or moved to another
administrative process. The DS/HTP DAS chairs the ISAT committee, which monitors
implementation, and the directorate records and tracks the status of ISAT recommendations on a
dedicated SharePoint site.

Post Security Program Reviews

        One of the directorate’s mission essential tasks is to conduct PSPRs at high threat posts.
The directorate currently uses the standard guidance found in 12 FAM 414 in conducting a
PSPR, as does DS/IP. The purpose of the PSPR is to “ensure that posts competently manage life
safety, emergency preparedness, and information security programs with full mission support
and participation, adequate personnel, sufficient resources, and appropriate management
control.” Directorate staff members conduct PSPRs through onsite visits, the frequency of which
is determined by the post’s threat ratings. Under current guidelines, a PSPR covers 75 program
areas. The FAM makes no distinction between a PSPR of a high threat post or posts in DS/IP.

        Among the 29 recommendations of the classified version of the Benghazi ARB report are
specific actions related to personnel assignments, training, technical security systems, and RSO
reporting that must be taken at high risk, high threat posts. Although not required, these have yet
to be formally incorporated into the PSPR checklists for high threat posts. Adding the
recommendations to the PSPR checklists—specific to high risk, high threat posts—would be a
further measure to minimize risks to personnel at these posts.

Recommendation 8: The Bureau of Diplomatic Security should revise its Post Security
Program Review checklist to include requirements specific to high threat posts and update the
Foreign Affairs Manual accordingly. (Action: DS)

                                       14
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Office of Special Programs

Operations Planning Unit

        The Office of Special Programs’ Operations Planning Unit is responsible for: drafting
and executing bureau-level strategic and operational plans for official travel to and from high
risk, high threat posts, the opening or reopening of these posts, promulgating DS’s deliberate
planning process throughout DS and the Department, and serving as a repository for lessons
learned from completed operations.

        DS began work on a formalized operational planning process, patterned after the U.S.
Army’s Military Decision Making Process 2 and dubbed the deliberate planning process, in mid-
2010. DS/IP began using it in March 2011 and the DS Training Center began teaching the
process to its agents. According to DS/HTP, where responsibility for the process currently
resides, 1,400 agents have been trained in how to use it. The Operations Planning Unit has
developed and implemented dozens of strategic and operational plans, including four successful
high-level visits to the Central African Republic. It has also planned the Secretary’s travel to
high threat, high risk posts and developed plans for re-entry into several posts that are currently
closed. After each completed operation, the unit develops an after-action report and lessons
learned that are then used in the development of future operational plans.

        The planning unit is understaffed. Four of the unit’s nine current positions are filled, three
by U.S. military officers on 1-year training assignments. The unit chief and the military officers
will complete their assignments in 2015, and the directorate does not have a plan to sustain
staffing of the unit. According to1 FAM 014, bureau heads have primary accountability for
ensuring that the organizations under their direct control conform to the organizational objectives
established by the Under Secretary for Management. Furthermore, 1 FAM 014 (1) states that
any proposed new organizational structure should strive to achieve a proper balance among
mission needs, efficiency of operations; and effective employee utilization. Failure to secure
sufficient staffing with Department resources or Department of Defense assets will impede the
unit’s ability to plan for necessary high risk travel and increase risks for such travel.

Recommendation 9: The Bureau of Diplomatic Security should implement a plan to adequately
staff the Operations Planning Unit of the High Threat Programs directorate. (Action: DS)

Liaison Officers

         DS/HTP has liaison officers to the Africa Command, Central Command, Special
Operations Command, and the Joint Special Operations Command. The primary responsibility of
the liaisons is to support the bureau’s coordination and communications with the military
commands. Senior military officers who work with the liaisons said the liaison officers have
enhanced the collaboration between the Departments of State and Defense.


2
  The Military Decision Making Process is a U.S. Army seven-step process for military decision making in both
tactical and garrison environments.

                                           15
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        A memorandum of agreement between the Department and Africa Command on a liaison
position is in force, but the other three commands have no agreement. The bureau planned to
discuss agreements with the Central Command and Special Operations Command in July 2014
but has not initiated discussions yet with the Joint Special Operations Command. According to
1 FAM 262.7-1(C)a.(4), the DS Plans and Policy Division is responsible for developing and
maintaining a record of such memoranda of agreement, which establish roles, responsibilities,
and funding of the respective parties. Reduced productivity and ineffective relationships may
occur in the absence of formal governing agreements.

Recommendation 10: The Bureau of Diplomatic Security, in coordination with the Office of the
Legal Adviser, should establish memoranda of agreement for all liaison positions. (Action: DS,
in coordination with L)

Security Protective Specialists

        The directorate’s security protective specialists (SPS) program trains and deploys
specialists hired under Section 303 of the Foreign Service Act to serve limited, non-career
appointments to supplement DS special agents in conducting protection operations. The program
provides headquarters coordination and liaison for SPS and provides guidance to regional
security officers on SPS management. Its current program manager recently promulgated
operating instructions and procedures on a dedicated SharePoint site, which also contains
administrative and training information and resources. He also initiated consultations with SPS
during training and as they pass through Washington on transfer or leave.

        The SPS program has 117 authorized positions, 107 of which have received National
Security Decision Directive 38 approvals. An additional 10 requests are pending. However, only
82 SPS employees currently are deployed. According to Department officials, the SPS program
suffers from a high attrition rate because of a lack of job security and uncertainty about the
program’s future. On March 10, 2014, DS initiated an internal review of the SPS program to
assess its success and necessity. The review was not completed at the time of the inspection.

Explosive Ordnance Disposal

        The directorate hired a personal services contract employee to manage 10 explosive
ordinance disposal-trained employees deployed in Iraq. DS guidelines require a 24/7 explosive
ordinance disposal emergency response capability for all property under chief of mission
authority, but contractors and the Department disagree regarding appropriate payment for when
personnel are “on call,” that is, available to provide these services. The OIG team reviewed the
explosive ordinance disposal personal services contract and found no provisions for standby or
on-call pay. Left unresolved, this issue could result in diminished explosive ordinance disposal
support and endanger mission personnel.

Recommendation 11: The Bureau of Diplomatic Security should modify the personal services
contract to clarify on-call pay for emergency explosive ordnance disposal personnel. (Action:
DS)


                                       16
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Resource Management
 U.S. Staff    Foreign       Civil   Personal    While               Students/Interns         Total
 Domestic      Service      Service  Services   Actually
                                     Contracts Employed
                 32           7         15         0                          0                54
 U.S. Staff    Foreign      Civil    Personal    While                                        Total
 Overseas      Service     Service   Services   Actually
                          Excursions Contracts Employed
                  0             0            16             0                                  16
.
                            DS/HTP Resources (in thousands)/a
 Funding Description                                                                 Amount
                                                                                  (in thousands)
 Worldwide Security Protection                                                        $12,082
 Overseas Contingency Operations – Iraq*                                              $36,367
 Worldwide Security Protection Overseas Contingency Operations –                      $11,777
 Afghanistan
 Worldwide Security Protection Enduring – Afghanistan                                $9,089
 Worldwide Security Protection Overseas Contingency Operations –                     $2,816
 Pakistan
 Total                                                                               $72,131
 *Reflects FY 2014 resources, as funds were not "shifted" from DS/IP until FY 2014

Financial Management

        The directorate manages a budget of $72,131,000. The bureau’s chief financial officer
allocates funds, most of which are effectively a pass through to posts to cover the cost of
personal services contractors, security officer’s allowances, and benefits for employees assigned
to the high threat posts.

        The budget is a mixture of Worldwide Security Protection (WSP) funds, which support
activities such as travel, training, supplies, and personal services contracts; advance of allotments
for high threat posts, residential housing, and school tuition; WSP Enduring funds, which support
related travel, training, and expenses that take place domestically or must be reimbursed to a
domestic office; and Overseas Contingency Operations funds, which support operations outside
normal mission costs and are specific to the U.S. missions in Iraq, Afghanistan, and Pakistan.

        The directorate’s resource manager tracks metrics and works as a liaison between the
directorate, the bureau’s chief financial officer, and the DAS. The resource manager oversees not
only financial issues but also a broad range of the directorate’s management functions.



                                        17
                            SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

        The chief financial officer has requested congressional authority to purchase 5 FTEs for
the directorate in the 2014 financial plan; at the time of the inspection, the request was under
consideration.

Logistics Management – Travel

       DS/HTP has no outstanding vouchers. OIG reviewed 6 months’ worth of vouchers and
found them to be properly justified and processed in a timely fashion.

Human Resources

        The directorate has 61 authorized positions. Its current structure was approved on July
24, 2013, and mirrors that of DS/IP, from which most of its FTEs were acquired. Each desk
officer has fewer countries to oversee than do counterparts in DS/IP, ensuring the deep focus for
which the new directorate was created. The directorate is staffed with a mix of Foreign Service
and Civil Service personnel, personal services contractors, and private contractors.

Organizational Structure

         Some staff told inspectors that DS/HTP is “top heavy.” They cite, for instance,
insufficient delegated authority, even to the regional director level, which makes the directorate
less efficient. The work requirements of the regional directors and of regional office director do
not specify the areas in which each has decisionmaking authority. According to 1 FAM 014.5,
organizational structure of an office should be consistent with an effective span of control and
performance of mission and should include “clear delegation of responsibility and authority,
transmission of information, work flow, clearances and operational costs, and morale.” Two
regional directors each supervise one deputy director; another regional director position manages
two deputy directors, one each for Iraq and Afghanistan.

        At the time of the inspection, the directorate carried five vacancies. It has a constantly
fluctuating number of gapped positions. The directorate offers bridge assignments for DS
personnel temporarily in Washington, where turnover is rapid and permanently assigned
personnel are in short supply. This situation will be ameliorated if the bureau gains approval for
the five new FTEs it has requested. However, a review of the staffing and functions may identify
additional staffing needs and the requirement to balance the workload more effectively.

        Inspectors raised the possibility of using while actually employed (WAE) employees 3 to
undertake key administrative and temporary duty functions, at least until new FTEs have been
approved and filled. DS/HTP has been authorized 12 WAEs, which would appear to be an easy
fix. The new DAS was receptive to the idea.

Recommendation 12: The Bureau of Human Resources, in coordination with the Bureau of
Diplomatic Security, should undertake a comprehensive review of the structure, management,

3
 WAEs are reemployed annuitants (retired Foreign Service and Civil Service employees) on intermittent
appointments.

                                           18
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

and manpower needs of the High Threat Programs directorate and make necessary adjustments.
(Action: DGHR, in coordination with DS)

Position Descriptions

       Position descriptions were drafted quickly when the directorate was created, and current
staff members maintain that the position descriptions are inaccurate and refer to them as
“placeholders.” It is important that position descriptions accurately reflect actual duties and
responsibilities to ensure accountability of job performance.

Recommendation 13: The Bureau of Diplomatic Security should update position descriptions
for the directorate of High Threat Programs staff members to accurately reflect current duties.
(Action: DS)

Morale

         Despite the press of business, OIG questionnaires indicate that morale is good. Staff
members cite mission orientation, the shared view that they are making a difference and the high
visibility that officers working in the directorate feel they receive. Many of the desk officers
report being invited to meetings with the DS Assistant Secretary, the Under Secretary for
Management, and the Deputy Secretary for Management. They confer with ambassadors and
assistant secretaries in the geographic bureaus and with the NSC staff.

Administrative Support

        The space plan for the directorate was agreed to on September 9, 2013, and phase one of
that plan started in December 2013. The process to organize, develop, and support the directorate
has been a long and complicated one, not reflective of the high priority of the directorate’s
mission. Interviews with DS staff highlight the absence of a well-articulated planning and
execution process, which has given rise to considerable frustration. The bureau’s executive office
needs to communicate more effectively with the directorate leadership. They could do so by
holding regular meetings between the executive office and the directorate and could resolve
remaining procedural and scheduling questions. The OIG team suggested the executive office
hold such meetings and generally improve communication of its plans to the directorate. The
executive office agreed to those suggestions.

Security Management

Domestic Security Program and Property Management Independence

        A Civil Service program analyst initially assigned to DS/IP was transferred to DS/HTP in
September 2013. She serves as the unit security officer and area custodial officer for both
directorates, with oversight of two domestic security programs, logistical responsibility for three
floors of DS headquarters, and other administrative functions. A DS/HTP employee should not
handle these functions for DS/IP. In accordance with 12 FAM 563.1, “Principal unit security
officers of larger functional areas may designate and direct assistant unit security officers to
carry out security responsibilities.”
                                                19
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 14: The Bureau of Diplomatic Security should designate in writing separate
unit security officers for each directorate. (Action: DS)

Recommendation 15: The Bureau of Diplomatic Security should designate in writing separate
area custodial officers for each directorate. (Action: DS)

Consolidating Security Container Combinations and Maintaining a Master File

        During the creation of DS/HTP, some safes and other office material shifted from DS/IP
to DS/HTP’s current space. The unit security officer stated that DS/IP never had a firm grasp on
proper accounting for property and procedures. For instance, records confirming that
combinations were changed annually or upon departure of personnel, as required by 12 FAM
532-2 (2)(5), were missing. The unit security officer is in the process of changing combinations
for containers storing classified information. Once the combinations are changed, unit security
officers in each directorate will separately control a master file of safe and secure container
combinations (Form SF-700).

        The unit security officer is also in the process of identifying property relocated to new
DS/HTP office space. Storage containers and information technology equipment are identified
by serial number and labeled with the appropriate security classification. Once inventoried, the
directorate will coordinate with the DS Logistics Management division for formal turnover of
property and initiate proper disposal procedures for any excess property.

        The directorate is making a concerted effort to identify and transfer property and change
security container combinations. Compliance with the two recommendations above to formally
separate DS/IP and DS/HTP responsibilities will accelerate the process.

Closing Hours Security Check

       DS/HTP does not have a weekly duty roster to conduct closing hour security inspections.
In accordance with 12 FAM 534.2-1 b., “supervisory officials must designate employees on a
weekly basis to conduct a closing hours security inspection of offices within a specifically
defined area of responsibility.” Duties include ensuring classified information is properly stored,
containers are locked, and classified information technology equipment is secure. This
mandatory requirement will minimize the risk of compromise of classified information.

Recommendation 16: The Bureau of Diplomatic Security should implement a weekly duty
roster to conduct closing hour inspections in the High Threat Programs directorate. (Action: DS)

Emergency Evacuation Drills

        DS/HTP’s emergency preparedness program is part of the DS emergency and facility
action plans. Evacuation drills are conducted according to building-wide notifications; however,
the latest instruction the DAS provided on October 18, 2013, stated that the rendezvous area for
DS/HTP personnel upon evacuation is currently a construction zone, therefore unsafe for
Department employees. According to 6 FAM 423.3-3 (b)(1)(5), assembly point locations must
be deemed appropriate.
                                                20
                            SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

Recommendation 17: The Bureau of Diplomatic Security should change the rendezvous point
for High Threat Programs directorate personnel upon emergency evacuation of the building.
(Action: DS)

        The latest instruction designating floor wardens and stairwell monitors was published on
October 18, 2013, and is outdated. It reflects a mixture of personnel and offices no longer located
in the space now occupied by DS/HTP. According to 6 FAM 424.1, the bureau emergency action
plan, which is used to guide leadership through identifying and prioritizing functions before,
during and after an event, should include designations of emergency personnel. Including
elevator monitors 4 should tie appropriate personnel and job titles to the floor on which they
work.

Recommendation 18: The Bureau of Diplomatic Security should update and implement a new
floor warden list for the High Threat Programs directorate. (Action: DS)

Information Technology Support

       Directorate staff members do not receive prompt attention for their information
technology issues from the Bureau of Information Resource Management (IRM) or the DS
Office of the Chief Technology Officer. The directorate is part of the centralized information
technology service and support operations under IRM. As such, the staff reports their desktop
and network issues to IRM’s information technology service center through which IRM
technicians assign the responsibility for each trouble ticket to either the Office of the Chief
Technology Officer or IRM for resolution.

        From April 1 through May 9, 2014, DS/HTP reported 103 trouble tickets. The issues
included resetting user accounts, mapping network drives, installing applications, and basic
network connectivity matters. Ninety-eight tickets were assigned to IRM for resolution, the
remaining five to the Office of the Chief Technology Officer. According to the IRM service level
agreement, resolution time parameters for trouble tickets range from half an hour for critical
issues to a maximum of 48 hours for low priority issues. IRM resolved the directorate’s trouble
tickets in an average of 4 days; the Office of the Chief Technology Officer resolved them in an
average of 3 days.

        IRM has a special VIP category for trouble tickets. Per the service level agreement, a
separate support group handles and gives immediate attention to trouble tickets for designated
VIPs. The directorate has three designated VIPs. One of these individuals reported the majority
of the directorate’s 103 trouble tickets in the hopes of receiving faster resolution. Those VIP-
designated tickets did not receive accelerated resolution.

        Not addressing the directorate’s trouble tickets in a timely manner has hindered its ability
to work and support high threat posts. IRM and DS management must ensure that increased
focus is provided to the directorate, considering the criticality of its work.

4
  Elevator monitors are part of the floor warden system. The high threat post listing does not include them. During
the Washington, DC, earthquake in May 2011, many DS personnel used the elevators to evacuate the building.

                                            21
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 19: The Bureau of Information Resource Management, in coordination with
the Bureau of Diplomatic Security, should adhere to the performance targets in the master
service level agreement for domestic consolidated bureau information technology support when
resolving trouble tickets for the directorate of High Threat Programs. (Action: IRM, in
coordination with DS)

File Management

         The directorate has no policy regarding how files are created, disposed of, or stored.
DS/HTP staff members maintain their own files, including use of personal folders, SharePoint
sites, or multiple shared network drives, including one that DS/IP owns.

         Folders and files the OIG team reviewed revealed project files located in multiple places,
with inconsistent naming conventions. Breakdowns of folders in each drive and subordinate
folders are not organized in a logical manner. Staff members indicated that the current method
for file storage and organization has made it difficult for them to locate needed information in a
timely manner; the ability to do so is dependent on individuals, rather than a defined process.

        DS has four bureau records coordinators to assist each office with managing files. Since
its establishment, the directorate has not met with records coordinators, nor has management
paid any significant attention to the need for a file management process. An established policy
will ensure that effective controls are in place for the creation, maintenance, and use of
documents, as well as assign responsibility to an individual to ensure the integrity of data.

Recommendation 20: The Bureau of Diplomatic Security should establish a file management
policy for the directorate of High Threat Programs that defines the responsibility for each
individual to maintain directorate files, file naming conventions, and storage location. (Action:
DS)

Tasker Tracking

        DS/HTP staff members report that the directorate receives numerous taskings and
inquiries, both formal and informal, from a wide variety of sources. The requests often are
redundant. A staff assistant and an executive assistant each track taskings. The former primarily
follows formal taskings and the latter informal requests, most of which are received by email or
phone, including from the NSC. In addition, the bureau’s executive office tracks Government
Accountability Office and OIG taskings. Thus, none of the directorate’s existing mechanisms is
comprehensive and it cannot accurately quantify its workload. Accurate record keeping is
essential to avoid repetitive tasks, frame a practical approach to workload management and
document the need for better systems or additional positions.

Recommendation 21: The Bureau of Diplomatic Security should establish a consolidated
tracking system, managed in one office, for all taskers the directorate of High Threat Programs
receives. (Action: DS)



                                       22
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

SharePoint Training

        DS/HTP staff members have not been trained in the use of SharePoint, despite having
their own internal SharePoint collaboration sites on OpenNet and ClassNet, as well as the
Security Management Console platform regional security officers use to collaborate and share
security documentation. According to 13 FAM 022.5, managers and supervisors are responsible
for evaluating job-related training effectiveness and ensuring that they and their employees have
current and up-to-date training. SharePoint training is offered every 2 weeks to directorate staff
but is not mandatory. SharePoint training would increase staff effectiveness.

Recommendation 22: The Bureau of Diplomatic Security should implement a plan that requires
directorate of High Threat Programs staff to complete SharePoint training. (Action: DS)




                                       23
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Diplomatic Security should establish a set of standard
operating procedures and policies and a handbook for the High Threat Programs directorate.
(Action: DS)

Recommendation 2: The Bureau of Diplomatic Security should publish annually a
Department-wide notice communicating the role of the High Threat Programs directorate, its
mission, and its responsibilities. (Action: DS)

Recommendation 3: The Bureau of Diplomatic Security should publish guidance in the
Foreign Affairs Manual delineating the High Threat Programs directorate’s mission,
responsibilities, and organizational structure. (Action: DS)

Recommendation 4: The Bureau of Diplomatic Security should require all regional security
officers at high threat posts to brief incoming U.S. direct-hire employees on the High Threat
Programs directorate’s role and mission. (Action: DS)

Recommendation 5: The Bureau of Diplomatic Security should develop and implement a
formal process for realigning the High Threat Programs directorate and International Programs
directorate staff responsibilities as changes occur to the high threat posts list. (Action: DS)

Recommendation 6: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Diplomatic Security, should implement a process for expedited responses to urgent
requests for security upgrades and emergency construction projects. (Action: OBO, in
coordination with DS)

Recommendation 7: The Bureau of Diplomatic Security should establish a policy that desk
officers in the early stage of an assignment in the High Threat Programs directorate will conduct
or participate in a familiarization visit to the diplomatic posts for which they have primary
responsibility. (Action: DS)

Recommendation 8: The Bureau of Diplomatic Security should revise its Post Security
Program Review checklist to include requirements specific to high threat posts and update the
Foreign Affairs Manual accordingly. (Action: DS)

Recommendation 9: The Bureau of Diplomatic Security should implement a plan to
adequately staff the Operations Planning Unit of the High Threat Programs directorate. (Action:
DS)

Recommendation 10: The Bureau of Diplomatic Security, in coordination with the Office of
the Legal Adviser, should establish memoranda of agreement for all liaison positions. (Action:
DS, in coordination with L)

Recommendation 11: The Bureau of Diplomatic Security should modify the personal services
contract to clarify on-call pay for emergency explosive ordnance disposal personnel. (Action:
DS)

                                       24
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 12: The Bureau of Human Resources, in coordination with the Bureau of
Diplomatic Security, should undertake a comprehensive review of the structure, management,
and manpower needs of the High Threat Programs directorate and make necessary adjustments.
(Action: DGHR, in coordination with DS)

Recommendation 13: The Bureau of Diplomatic Security should update position descriptions
for the directorate of High Threat Programs staff members to accurately reflect current duties.
(Action: DS)

Recommendation 14: The Bureau of Diplomatic Security should designate in writing separate
unit security officers for each directorate. (Action: DS)

Recommendation 15: The Bureau of Diplomatic Security should designate in writing separate
area custodial officers for each directorate. (Action: DS)

Recommendation 16: The Bureau of Diplomatic Security should implement a weekly duty
roster to conduct closing hour inspections in the High Threat Programs directorate. (Action: DS)

Recommendation 17: The Bureau of Diplomatic Security should change the rendezvous point
for High Threat Programs directorate personnel upon emergency evacuation of the building.
(Action: DS)

Recommendation 18: The Bureau of Diplomatic Security should update and implement a new
floor warden list for the High Threat Programs directorate. (Action: DS)

Recommendation 19: The Bureau of Information Resource Management, in coordination with
the Bureau of Diplomatic Security, should adhere to the performance targets in the master
service level agreement for domestic consolidated bureau information technology support when
resolving trouble tickets for the directorate of High Threat Programs. (Action: IRM, in
coordination with DS)

Recommendation 20: The Bureau of Diplomatic Security should establish a file management
policy for the directorate of High Threat Programs that defines the responsibility for each
individual to maintain directorate files, file naming conventions, and storage location. (Action:
DS)

Recommendation 21: The Bureau of Diplomatic Security should establish a consolidated
tracking system, managed in one office, for all taskers the directorate of High Threat Programs
receives. (Action: DS)

Recommendation 22: The Bureau of Diplomatic Security should implement a plan that
requires directorate of High Threat Programs staff to complete SharePoint training. (Action: DS)




                                       25
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                     Name     Arrival Date
Deputy Assistant Secretary                                 Douglas Allison         4/2014
Senior Advisor                                                 Kevin Bauer         1/2014
Office of Special Programs                       Vacant (Andriy Koropecky)         7/2014
Office of Regional Directors                                    Paul Brown       Unknown
Regional Director–African Affairs                              Jeff Lischke       10/2013
Regional Director–Near East/South Central Asia                  Steve Jones        9/2013
Regional Director–Iraq/Afghanistan                 Vacant (Ronnie Catipon)         8/2014
Operations Planning Cell                                      Lance Bailey         9/2013
Deputy Office Director                                        Dave Groccia         8/2013




                                     26
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
DAS              Deputy assistant secretary

DS               Bureau of Diplomatic Security

DS/HTP           High Threat Programs Directorate

DS/IP            International Programs Directorate

FAM              Foreign Affairs Manual

FTE              Full-time employee

IRM              Bureau of Information Resource Management

ISAT             Interagency Security Assessment Team

NSC              National Security Council

OBO              Bureau of Overseas Buildings Operations

PSPR             Post Security Program Review

RSO              Regional security officer

SPS              Security protective specialist

WSP              Worldwide Security Protection




                            27
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
